<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________
     SUBCOMMITTEE ON AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG 
                  ADMINISTRATION, AND RELATED AGENCIES
                    JACK KINGSTON, Georgia, Chairman
 TOM LATHAM, Iowa                   SAM FARR, California
 JO ANN EMERSON, Missouri           ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama        SANFORD D. BISHOP, Jr., Georgia
 CYNTHIA M. LUMMIS, Wyoming         MARCY KAPTUR, Ohio
 ALAN NUNNELEE, Mississippi         
 TOM GRAVES, Georgia                

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Martin Delgado, Tom O'Brien, Betsy Bina, and Andrew Cooper,
                            Staff Assistants
                                ________

                                 PART 4

                 UNITED STATES DEPARTMENT OF AGRICULTURE

                    Research, Education and Economics

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ________

         Printed for the use of the Committee on Appropriations










   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________
     SUBCOMMITTEE ON AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG 
                  ADMINISTRATION, AND RELATED AGENCIES
                    JACK KINGSTON, Georgia, Chairman
 TOM LATHAM, Iowa                   SAM FARR, California
 JO ANN EMERSON, Missouri           ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama        SANFORD D. BISHOP, Jr., Georgia
 CYNTHIA M. LUMMIS, Wyoming         MARCY KAPTUR, Ohio
 ALAN NUNNELEE, Mississippi         
 TOM GRAVES, Georgia                

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Martin Delgado, Tom O'Brien, Betsy Bina, and Andrew Cooper,
                            Staff Assistants
                                ________

                                 PART 4

                 UNITED STATES DEPARTMENT OF AGRICULTURE

                    Research, Education and Economics



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ________

         Printed for the use of the Committee on Appropriations

                     U.S. GOVERNMENT PRINTING OFFICE
 66-430                     WASHINGTON : 2011














                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\         NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\           MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia               PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia                NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey   JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                      ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama           JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri              JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                    ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho             DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas           MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida               LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana                SAM FARR, California
 JOHN R. CARTER, Texas                 JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana           CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California               STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                    SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio            BARBARA LEE, California
 TOM COLE, Oklahoma                    ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                   MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida            BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania         
 STEVE AUSTRIA, Ohio
 CYNTHIA M. LUMMIS, Wyoming
 TOM GRAVES, Georgia
 KEVIN YODER, Kansas
 STEVE WOMACK, Arkansas
 ALAN NUNNELEE, Mississippi
   
 ----------
 \1\Chairman Emeritus    

               William B. Inglee, Clerk and Staff Director

                                  (ii)

 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2012

                              ----------                              

                                         Wednesday, March 16, 2011.

                       DEPARTMENT OF AGRICULTURE

                               WITNESSES

CATHERINE E. WOTEKI, UNDER SECRETARY FOR RESEARCH, EDUCATION AND 
    ECONOMICS
EDWARD B. KNIPLING, ADMINISTRATOR, AGRICULTURAL RESEARCH SERVICE
KATHERINE R. SMITH, ADMINISTRATOR, ECONOMIC RESEARCH SERVICE
CYNTHIA CLARK, ADMINISTRATOR, NATIONAL AGRICULTURAL STATISTICS SERVICE
ROGER BEACHY, DIRECTOR, NATIONAL INSTITUTE OF FOOD AND AGRICULTURE
MICHAEL YOUNG, BUDGET OFFICER, DEPARTMENT OF AGRICULTURE

                       Introduction of Witnesses

    Mr. Kingston. Okay. The committee will come to order.
    And I would like to welcome back Dr. Catherine Woteki, who 
is a veteran of speaking to this committee on all things 
agriculture, good and evil and political.
    And Dr. Knipling is back with us again, and we will try to 
come up with some hard questions for you and make you feel at 
home. We want you to have that.
    Dr. Katherine Smith is with us and Dr. Cynthia Clark and 
Dr. Roger Beachy. So, Mr. Young, that leaves you the only one 
without a Ph.D. on the panel, but you know where all of the 
money is.
    But we are glad to have you guys with us, and your 
testimony has been submitted. So you are welcome to read it 
verbatim or summarize it. Mr. Farr and I probably have a 
preference, and I bet you can guess which one, but you do 
whatever you feel comfortable with because actually I do know 
bouncing around this is very difficult.
    And with that, Mr. Farr.
    Mr. Farr. This is an area that is very keen and important 
to me and certainly the State of California and the Nation and 
my district. I really look forward to some interactive 
discussion here today.
    Mr. King. Dr. Woteki.

                           Opening Statement

    Dr. Woteki. Well, thank you, Chairman Kingston, Congressman 
Farr.
    We have provided written testimony from all four of the 
agencies as well as my testimony, and we appreciate your 
putting that into the record.
    I will summarize briefly my testimony.
    The team of scientists that are sitting before you really 
do represent the expertise that we have within the Department, 
as well as the dedication of this administration to invest in 
science to keep our nation and our economy healthy.
    From providing nutritious food for children and families 
and supporting the productivity of our farmers, to helping to 
use our natural resources to create jobs and to mitigate the 
effects of climate change, the work that the Research, 
Education and Economics Mission Area does improves the lives of 
the American people and also has an impact that is felt around 
the world.
    USDA has a very long history in supporting research and 
providing for education, and since we're testifying about the 
2012 budget request, I would like to bring to your attention 
that 2012 actually marks the 150th anniversary both of the 
establishment of the Department of Agriculture and also 
Congress' enacting the Morrill Act that created the very 
historic partnership between the Federal Government and the 
States in support of the land grant universities.
    Since that time, our State colleges and universities have 
graduated more than 20 million students, produced countless 
scientific breakthroughs, pursued solutions to problems shared 
across society. They have vastly increased agricultural 
productivity and improved the lives of people everywhere.
    Today, however, there is a growing recognition that 
agriculture and natural resources really sit at the heart of 
the world's most critical problems: increasing sustainable food 
production, providing clean and abundant water, responding to 
climate change, developing renewable energy, and improving 
human health. And the challenges that are facing agriculture, 
human as well as animal health, natural resources and 
conservation are immense, and they need to be faced with the 
most robust research enterprise that we can muster.
    This anniversary year in 2012, however, is going to come at 
a time of very difficult financial challenges for the entire 
Federal Government, including the Department of Agriculture and 
the research agencies. To be able to make the strategic 
investments in the food and the agricultural sector and our 
economy in the long term, we recognize that we have to make 
some cuts to programs that we care about, and the President's 
budget for this mission area, Research, Education and 
Economics, proposes reductions in programs and terminations of 
projects because these tough budget times call for very 
difficult choices to be made, focusing the budget on the 
highest priority and our most productive programs.
    The food and agriculture sectors of the economy have proven 
to be very strong. Focusing on and enhancing the high priority 
programs in the budget is critical to keeping them strong and 
continuing their contributions to the future economic well-
being of our country. The food and agriculture economy is a 
huge engine for our country's economy. It contributes jobs. It 
contributes also to the positive balance sheet for our country 
when it comes to international trade.
    Last year in 2010 that positive trade balance for 
agriculture related to a total of $33.9 billion, and 
agriculture has maintained a surplus since 1960.
    In maintaining this advantage, we must never take for 
granted the scientific insights needed to combat the next 
animal disease or plant disease that may emerge or the next 
weather anomaly that can impact these important commodities and 
products.
    In keeping with the President's commitment to start the 
country on a path to eliminating the deficit, the budget 
requests $2.6 billion for the four REE agencies, or a reduction 
overall of $244 million in discretionary funding. Within the 
total, a request for increases in programs addressing some of 
the greatest challenges to the country, including nutrition and 
obesity, renewable energy, climate change, food safety, as well 
as maintaining the very important scientific collections.
    It also proposes to develop the capacity to use a new 
analytical tool, behavioral economics, to provide valuable 
insights to policy development and program design, and also to 
enhance the department's flagship competitive grants program, 
the Agriculture and Food Research Initiative, which goes by the 
acronym AFRI.
    These increases are offset by the elimination of 
congressionally designated projects and decreases or 
terminations of lower priority programs.
    Mr. Chairman, my colleagues and I are happy to answer any 
questions you might have.
    [The information follows:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                    APPLIED VERSUS GENERAL RESEARCH

    Mr. Kingston. I wanted to ask you a question. This is 
opening up to really any of the scientists on your board, in 
terms of applied versus general research. Because one of the 
questions that I have is, well, general research kind of does 
not lead to things necessarily that are on a fast pace. Applied 
research, you come out and you say, ``Okay. This is what we 
figured out.''
    But then applied research approaches corporate welfare, and 
along that line a lot of scientists now, particularly in the 
medical field, go to universities, not so much to USDA, but to 
a lot of your university partners, and they say, ``Willing to 
relocate. Here are my requirements. You know, I want the lab to 
look like this. I want to have the following associates, and 
then I want ownership of some of the things we discover.''
    I just wanted to ask a general question on that. How do you 
guys see that?
    Dr. Woteki. Well, Mr. Chairman, the research agencies in 
this mission area support a range of research from very 
fundamental inquiries through to applications, development of 
tools of use to farmers in making decisions, as well as in 
providing technologies that can be then further developed by 
the private sector into real products.
    So the approach that we take is, it is important to do that 
investment in some fundamental areas of inquiry because that 
long term is going to pay off in insights that are going to 
actually develop approaches that are going to be----

                 APPLIED RESEARCH AND CORPORATE WELFARE

    Mr. Kingston. Well, I understand the philosophy. I am just 
saying how do you as scientists who see this in the next lab 
over, you might say, how do you feel about it? Where do you 
see, okay, this is now entered into corporate welfare or 
enrichment of somebody who actually works for a State 
university and suddenly they have got a side deal that is going 
to make them a lot of money?
    And I am not saying it is necessarily a bad thing, but I 
also say it seems like it can be one of those things that you 
have to control.
    And I am not holding you responsible for controlling it 
necessarily either. I am just throwing this out.
    Dr. Woteki. We do not view the research that we sponsor 
either in universities or that is conducted in our intramural 
agencies as being corporate welfare. The vast majority of the 
research that is supported by research, education, and 
economics--REE--falls into two areas. One is what would be 
considered to be pre-competitive research. So it is the kind of 
research that private companies are not going to support. It is 
the kind of research that farmer organizations are not going to 
be able to support either. So it is very important research. It 
is more fundamental. It is long term.
    The second category of research that we do is research that 
has applications in many different areas, but it is also 
research, again, that farmers are not going to be able to 
support through their associations, or it is for sectors of the 
agricultural industry that are relatively small and also are 
not going to be able to pull it together.
    These research agencies also provide an infrastructure for 
research. The Agricultural Research Service, for example, has a 
very important function in maintaining collections of germ 
plasm that are of importance to agriculture. It is those germ 
plasm collections, plants and animal species that provide to 
the research community and to the private sector the 
possibility for identifying genes that are going to have traits 
that will protect against pests, protect against disease when 
they are then bred or using the new genetic technologies 
introduced into plants and into animals.
    The other aspect of our research is that it is inherently 
governmental. There are responsibilities that we have for 
providing support to the action agencies within the department, 
the science base for their program and policy decisions. So we 
view that as being our large second role, as providing this 
infrastructure as well as scientific evidence base for the 
other agencies within USDA and also beyond USDA. The Food and 
Drug Administration, for example, looks to the research 
agencies here to provide answers to their questions that form 
then the basis for their program and policy decisions.
    Mr. Kingston. Well, I am out of time, and I would like to 
explore this further with you when we get back, when the time 
comes back.
    Mr. Farr.

                      IMPACT OF BUDGET REDUCTIONS

    Mr. Farr. Well, thank you very much, Mr. Chairman, and 
thank you, Doctor, for being here and your very competent 
staff. I appreciate your service at a time when people are very 
critical of all of us in this service. And I think it is a need 
to kind of re-educate the public as to what the value of our 
services are.
    The H.R. 1 bill that passed, which was this $60 billion cut 
to have to be taken before the end of the year, it was not 
successful in the Senate, but it certainly drew the line in the 
sand because it came out of this committee as to what the game 
plan was here on out.
    And I think we need to look at that and realize that that 
is a goal that if you cannot achieve it in the first instance, 
you may achieve it, and now we are going to be passing another 
or we have passed another CR that if you add it all up, it has 
been about $2 billion a week, and with 30 weeks left, that adds 
up to $60 billion if we keep going this way, and that is 
exactly what H.R. 1 did.
    So I am very interested, and I think other members are of 
trying to figure out what is the trickle down effect of that 
cut. In that bill there was a rescission of $585 million in the 
Agriculture Department. That cut unobligated balances.
    Within NIFA have you determined what those accounts are 
that have unobligated balances and what would be the impact if 
the Secretary's knife were to cut those provisions? 
Specifically, are they ongoing research awards and projects 
that would be stopped midterm?
    What is going to be the impact of these cuts?
    Dr. Woteki. Mr. Farr, we recognize that in order to reduce 
the deficit and to address the debt issues that there are some 
very hard choices that are being made. We do believe that in 
order to be responsible in the way that we are approaching our 
budgets, that we really have to make some very hard choices.
    At the same time, we have to be also focusing on making the 
investments that are going to bring the economy back to life 
and----
    Mr. Farr. Well, we had hoped that all of the research is 
investments, but I mean, what about the cuts? You cannot avoid 
them.
    Dr. Woteki. That is true, and the----
    Mr. Farr. So where are the impacts going to be?
    Dr. Woteki. The 2012 budget actually did make the proposals 
to eliminate earmarks, and my understanding is that that is 
included.
    Mr. Farr. But that is not my question. My question is we 
have ordered these cuts. If they come to your department and it 
is unobligated, you are going to have to offer up something. 
And what is going to be the impact?
    Dr. Woteki. Well, I can tell you that the immediate impacts 
are going to be largely felt by universities; that the funding 
that would not be allowed would be funding that goes to support 
research and various other activities that have traditionally 
been earmarks in our budget.
    Mr. Farr. So the priority is earmarks first. They go first.

                          EARMARK TERMINATIONS

    Dr. Woteki. Correct.
    Mr. Farr. How many earmarks were in your budget?
    Dr. Woteki. In total it adds up to about $141 million in 
NIFA and $42 million in the Agriculture Research Service.
    Mr. Farr. And how many research projects is that?
    Dr. Woteki. I would have to get back to you with an 
absolute accounting of how many research projects are involved.
    Mr. Farr. Well, do you have any guesstimate? Does it affect 
every State?
    Dr. Woteki. Well, I can tell you within the ARS budget, 
about a third of that is passed through to universities, and 
for NIFA, all of it is.
    Mr. Farr. do the universities know that?
    Dr. Woteki. Yes, they are acutely aware.
    Mr. Farr. They are on alert?
    Dr. Woteki. Yes.
    Mr. Farr. Well, they certainly have not been here. I really 
would appreciate if you could give the Committee the list of 
eligible victims.
    Dr. Woteki. And we will be happy to provide that to the 
Committee.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Farr. For example, and I wanted to just see how you 
handled these because one of our very successful competitive 
grant programs has been the Viticulture Consortium, which has 
been out in California. It is a, you know, modest investment on 
an annual basis. Approximately $2 million has leveraged over $5 
million in industry investment in research. The funds have 
employed scientists, technical staff, graduate students working 
on improving the efficiency and sustainability of specialty 
crop industries, which is developing in every State in the 
Union, and improving much of the vitality of many rural areas, 
which the Secretary has been very keen on trying to sustain 
because rural America is really at risk.
    And I wondered what solutions you are going to offer to 
continuing important work like that. You know, this is a very 
valuable, successful project. It has got a lot of private 
sector investment. How do you make your priority decisions?
    Dr. Woteki. Well, the Viticulture work that you have cited 
is a successful project. There are quite a number of them that 
have been successful and long-term projects that have been 
supported through earmarks.
    And as I indicated in my summary of my testimony, by 
zeroing out earmarks there are some very good programs that 
will be affected. What we are proposing is that the university 
communities that are being affected, that they compete under 
the competitive grants program, provide a proposal to AFRI, and 
if it is meritorious, it will compete well and has a chance of 
getting funding within that competitive grants program.
    Mr. Farr. Well, in the next round, I would like to follow 
up on that. Let me just set the stage here. You have and I 
think this committee believes, but maybe it is not true, that 
over time a lot of traditional research projects have been 
funded by the department. I have always heard that some of 
those projects are not even relevant anymore, but they come out 
of formula funding or come out of anything.
    I am very interested in how you use the best professional 
decision making and what is the relevance of these research 
projects to really dealing with today's problems.
    Mr. Kingston. The gentleman's time has expired, but we are, 
I think, moving toward the same subject. First of all, I want 
to say we actually do have a list of those earmarks so that we 
can save the Under Secretary time, and we will submit them for 
the record.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                    FORMULA VS. COMPETITIVE PROGRAMS

    But what I am concerned about is that on research, where 
does it become corporate welfare in that you have a small group 
that is going to benefit the most and profit from that 
research. And in terms of competitive grants, how does that 
play into it?
    I do know that the Council for Agriculture and Science 
Technology has released a report on this. So the question is 
going to be, and I will read this, but competitive versus 
formula grants. How do you make a decision and what is the 
philosophy on it?
    But what the Council for Agriculture and Science Technology 
report said is they made a case for public investment in 
agriculture because it does help the output, but they also have 
said in there that funding should be taken from the competitive 
grant programs and allocated to the formula funds.
    So just talk to us about formula versus competitive.
    Dr. Woteki. Sure. I am happy to do that.
    Mr. Kingston. And I do want to know also, getting back to 
the first round in terms of when you are looking at research, 
when does it become something that you do not feel that the 
public should be funding?
    Dr. Woteki. As I started to say, I am happy to do that, Mr. 
Chairman. And I can comment both from the perspective of being 
a former dean as well as now administering these research 
programs.
    The way that funding of agriculture research at 
universities has traditionally been done has been through a 
combination of formula funds, which also leverage a State match 
that goes to the agricultural experiment stations within the 
States.
    In more recent years, the department has also had a 
competitive grants program. For many years it was called the 
National Research Initiative. Now it has been renamed to AFRI 
that I referred to earlier, and the competitive funding 
approach reflects the thinking that is largely post World War 
II about what is the best way to go about stimulating science 
that is going to lead to new insights and innovation.
    So we continue to support research through the formula to 
States. As a former dean, I used those funds really to focus on 
what the issues were that were mostly very much local, were 
problems that were facing Iowa farmers, and for which using 
those funds, we could provide, you know, really site specific 
research and solutions for in my case Iowa farmers, and also 
the funds helped to support the link between the extension 
program and the research that was going on on campus so we 
could get the word out to farmers as quickly as possible.
    The competitive funding approach is really looking to 
identify the most innovative, most cutting edge scientific 
aspects towards really fundamental questions. And what we have 
done within the AFRI Program, and I would like to ask Dr. 
Beachy to give you a bit more background on the approach that 
we have been taking within AFRI, is to try to link up that 
fundamental kind of research with higher education as well as 
extension in new ways so that those insights that are coming 
out of the laboratory are going to get into extension and into 
the farmers' hands as quickly as possible.
    So that is the approach that we have taken on formula and 
competitive funds. And we believe that the competitive research 
in the agricultural sciences really has been severely under 
funded, and our budget proposes an increase of about 23, 24 
percent to bring the total in the AFRI Program up to $325 
million.

                AGRICULTURE AND FOOD RESEARCH INITIATIVE

    So, Dr. Beachy, would you like to talk about the approach 
that you are taking?
    Dr. Beachy. Mr. Chairman.
    Mr. Kingston. Dr. Beachy.
    Dr. Beachy. Thank you, Mr. Chairman.
    Maybe the best way to do this would be to give an example 
of one of the programs that is being started. We spent the 
last--over the last five to ten years we have funded projects 
in wheat and barley because wheat and barley were not be 
approached by the large companies, and the investments led to a 
better understanding of genes and the genomics of wheat and 
barley, but it did not get us a product.
    So this year we asked that team to come together and work 
across 20 different States to address all of the genetic 
variation in all of the wheat and barley, and put that 
information with the genetic information to develop varieties 
that could then be grown by those farmers in that region or 
could be then licensed out to seed companies.
    Well, the challenge here is that those are very complex 
organisms and the United States has a pretty wide range of 
growing conditions, different diseases, different insects, and 
different soil types. And this group has come together in a way 
that includes the researchers and the geneticists, coupled with 
extension agents and with teachers and are going to be training 
plant breeders at the same time they are doing the development 
of varieties that would then be useful in those regions.
    And that is something that the private sector would not 
have done. So we are taking our prior investments and current 
investments to develop products that then would be licensed 
outward.

                     AGRICULTURAL RESEARCH RESULTS

    Mr. Kingston. Okay. Let me ask you. If I was to say what 
were the five best research projects that you did last year, 
would you be able to rattle them off quickly?
    Dr. Beachy. Well, the issue is how long----
    Mr. Kingston. And I am going to ask Dr. Knipling. I am just 
putting him on notice.
    [Laughter.]
    Dr. Beachy. And I guess my usual response is that between 
the research that we do in the laboratory and when it makes a 
product is between 10 and 15 years. So that the research that 
we would have sponsored in wheat and barley earlier and what we 
are doing now will in 5 to 8 years develop those varieties that 
would go outward. So we are looking at that window of 10 to 15 
years.
    And, again, we provided the information that a private 
sector then could take on their shorter term and develop what 
they would like. But research really is a long-term investment, 
and if we did not invest, we would be subject to----
    Mr. Kingston. Well, one of the things that the folks at 
NASA always have been decent about is, okay, Space Station, 
maybe you do not like the idea of space shuttles and, you know, 
that sort of thing, but you know, we brought you the calculator 
or Tang. I am not sure that was an advancement in the cause, 
but you know, things like that that says, okay, here are some 
of the by products of our research.
    I think agriculture need to be in that position.
    Dr. Beachy. I think it is. The advances that have led to 
the higher yields in corn that we are seeing now is an 
investment that we made 10 to 15 years ago.
    Mr. Kingston. What was the yield and what is it now because 
of that?
    Dr. Beachy. Well, when I was a kid it was 40 bushels an 
acre, and about 8 or 10 years ago it was 160 on average, and 
this year the average was someplace north of 240.
    Mr. Kingston. Well, think about it this way. We are writing 
your obituary, and you know, we want to put some bragging point 
in it on great things, and the reason why this is important to 
all of us is because I as a Member, public servant, you, too, 
we need to be able to go out in public and say, ``This is the 
difference we made. This is some of the stuff that we did.''
    Dr. Beachy. I think if we did not point----
    Dr. Kingston. She is writing your obituary. What did you 
put on it? ``Great guy.''
    Dr. Beachy. She wrote what I said earlier, and that is we 
result in higher productivity, which at the end of the day is 
what leads us to the economy that we have in agriculture. 
Whether that is better application or knowing how to apply 
fertilizer more effectively with less runoff or whether it is a 
better variety that does not succumb to the leaf disease in 
wheat or the corn blight that hit us 30 or 40 years ago, those 
were big milestones.
    What we are seeing now are the annual increments, and we 
are challenged now because the annual increments of 
improvements or what we call total factor productivity is not 
on the same trajectory as it needs to be to meet the world's 
needs.
    Mr. Kingston. Well, I think that that is one of the things 
that we do need to talk about, is the production per acre and 
the fact, as your testimony stated, that we have not just a net 
surplus in agriculture exports, but a hugh, and you also said 
that there is no prediction that that will change in the future 
either, and that is one of the things that we should talk 
about.
    My time has expired. I look forward to hearing what Dr. 
Knipling is going to tell me in terms of----
    [Laughter.]
    Mr. Kingston. You know, I like to hear what the bugs are up 
to and all kinds of other things.
    So, Mr. Farr.

                      RESEARCH FUNDING MECHANISMS

    Mr. Farr. Thank you very much, Mr. Chairman. this is a 
dialogue we are both having, and I think it is essentially a 
learning process for us.
    But what I have found, and I am sure it is true, that when 
universities do research, if there is some value to come out of 
it of, you know, a product to be sold, universities and I hope 
the Federal Government also protects themselves so that have 
the patent or the copyright on it so that when there is a 
return on that investment, that it insures to the public 
benefit as well.
    That is typical in all universities. I mean, that is how 
Stanford gets so rich, with the genome project and things that 
they were doing, and the biochemical that came out of a lot of 
the laboratories there that I am sure somewhere in the 
background had public support as well.
    But you essentially manage, as you said, three programs. 
You have a competitive grants program, a formula program, and 
an earmark program or have had an earmark program. Which of 
those drives it?
    I mean, you are the smart scientists. We hire you to make 
these decisions. Taking all of the world crises and each State 
crisis and every kind of invasive species that is coming in, 
and trying to make a decision as to what of these pressures for 
research are really relevant and important, and you have got 
three pots to pull from, but two of them are totally driven.
    I mean, the formula, it just goes out and there is really 
no quality control with that, it seems to me. The earmarks, 
they come from us, not from you. Competitive grant sounds like 
the most marketplace driven. I am sure there is some politics 
in that, too, but if we do not have earmarks, is it smart to 
continue the formula grants? Should we just have one? Should it 
all be competitive?
    I know, Jack, it would be interesting because I do not 
think we could ever get the political support because for some 
of these universities, this is a cash cow to them, and they are 
not going to give it up. They are in that formula
    What I am just interested in is your perspective of sitting 
on high of all three of these systems, and frankly, I think 
earmarks in many cases are relevant. I know in the things I 
have gotten involved in relevance because we have had a 
breakout. There is no way of getting money there fast. It is 
sort of emergency money, and we need to kill this pest or 
figure out how to eradicate it or keep it under control, and 
that is where the earmarks have been. You know, it is going to 
be tragic when we do not have them.
    Dr. Woteki. Well, Congressman, we have been doing two 
things to address the underlying concerns in your question. 
Since I have joined the department 5 months ago, I have been 
working with the administrators here, as well as with many 
different stakeholder groups, to come up with a plan that 
involves the expertise that all of the agencies bring, along 
with the university community, to addressing these really big 
challenges that are facing agriculture.
    We call it an action plan, and it essentially identifies 
what the role is going to be for the REE agencies and the 
funding mechanisms that we are going to use for addressing 
these, whether it is going to be through an intramural program 
at NASS or ERS or ARS, or whether we are going to seek the 
answers in the university community.
    So I would be happy to spend some time, you know, talking 
with you about that action plan and how we envision that 
working.
    Mr. Farr. When do you think that plan will be out?
    Dr. Woteki. Well, actually we have it now available for 
comment. We are seeking comment and would very much, as I said, 
like to sit down with you and go through it.
    Mr. Farr. Well, does it essentially move the formula 
program into a competitive grant program? Is that what it-
    Dr. Woteki. No. It recognizes that we continued to have in 
law the responsibilities for providing funding to the 
agriculture experiment stations and to extension through 
allocation of formula. But it does recognize that there are, 
because of these different funding streams, different ways of 
accomplishing our research agenda, and it recognizes that the 
intramural agencies provide infrastructure, and part of that 
inherently governmental function that I talked about earlier, 
and also recognizes that the experiment stations and extension 
have specific expertise that they can bring.
    And then on top of that, the competitive grants program 
provides us the opportunity to be more agile in addressing 
emerging problems and in the planning cycles for the agencies, 
we are trying, in all the meetings that we are having with our 
various constituent groups, to identify where is the best 
place; which of these mechanisms is the most appropriate for 
funding research.

                                EARMARKS

    Mr. Farr. Now, that sounds like a lot of process. What I am 
interested in, I guess, the bottom line here is all of these 
earmarks that we just wiped out, how many of them are really 
relevant and really should continue to be funded.
    Dr. Woteki. Well, as I had indicated earlier, some of them 
are very meritorious, but because they were earmarked----
    Mr. Farr. Yes, we are throwing the baby out with the bath 
water.
    Dr. Woteki [continuing]. In that category that we are 
proposing to be eliminated.
    And the investigators can apply through the competitive 
grants program for funding.
    Mr. Kingston. The gentleman's time has expired, but I want 
to continue on that same vein. Because my question is, and I 
see Dr. Beachy wants to say something, but in your comments, if 
an earmark has been, say, even though they are one year at a 
time, a lot of them have been going on for 2 to 3, maybe 4 or 5 
years. Does the grantor or grantee have to reapply through the 
competitive process?
    If you are kind of halfway through the stream, would they 
get more favorable treatment in order to continue, particularly 
the ones you feel are meritorious?
    Dr. Woteki. My understanding of the way that this will work 
is that if in the appropriations the earmarks are zeroed out, 
we will be notifying the universities to that effect, that 
there are no funds to continue further support of that work.
    Mr. Kingston. But on some of the stuff that is meritorious, 
will you be in a position of telling us, hey, this is, as Mr. 
Farr has just said, throwing out the baby with the bath water; 
are you going to be in the position of saying, ``Here are some 
of the priorities we have, and it would be a good idea if these 
were continued, and we want to have an open communication with 
Congress on some of these matters''?
    Dr. Woteki. Well, we will certainly be investigating other 
options, but my understanding is if we do not have an 
appropriation to support them, we do not have the funds to 
support them. We would encourage the investigators, who have 
been supported through earmarks, to take advantage of the next 
cycle of the competitive grants funding and to apply through 
that program.
    Mr. Kingston. Is there enough money in it?
    Dr. Woteki. We are proposing an increase that would bring 
the total up to $325 million.
    Mr. Kingston. How much are the earmarks total?
    Dr. Woteki. Well, as we have talked about, the amount in 
NIFA is $141 million.
    Mr. Kingston. Dr. Knipling, I wanted to hear what are your 
five favorite accomplishments that you guys have had.
    Dr. Woteki. He has had a lot of time to think about it.
    Mr. Kingston. He has had more time than he deserves, I 
think.
    [Laughter.]

                      ARS RESEARCH ACCOMPLISHMENTS

    Mr. Knipling. Well, thank you, Mr. Chairman.
    Coincidentally, we often describe the total ARS program as 
five major components: natural resources, crop production and 
protection, livestock production and protection, food science, 
food technology, and human nutrition. And, in fact, I think I 
can cite an example in each of those five areas that is very 
current and contemporary.
    I would just say quickly if we look historically, many of 
the consumer products that we are all very familiar with have 
been derived from previous USDA research that, although 
developed in the pre-commercial phase, have gone on to be 
adopted by the private sector to develop consumer products. 
Orange juice, cotton fabrics, clothing that we are wearing 
every day, food products in the grocery store, there is a 
science story behind every one of those.
    But more contemporary, if I were to cite an example in the 
natural resources area, we have supported other agencies of 
USDA, the Natural Resources Conservation Service, and 
incidentally, that is one of our mandates, is to serve the 
other agencies of USDA. They are one of our major customers, 
but the past several Farm Bills have tasked USDA to 
definitively define the outcomes in support of conservation 
investments, and we have done the research through the so-
called Conservation Effects Assessment Program to show that 
these conservation programs do, in fact, save soil erosion, 
improve water quality, contribute to the wellness of the 
environment.
    In the plant science area, I would quote some of the 
fundamental genomics work that we have done in partnership with 
other agencies that have laid the foundation for advancements 
by other scientists in the private sector, the corn genome, the 
maize genome.
    In the plant health area, a very successful program that is 
continuing after about ten years is control scab disease in 
wheat, Fusarium. We have diminished the impact of that disease 
and also the toxins that are associated with that disease, 
which has both food, human health, and animal health 
implications.
    Right now we are working actively on this so-called UG-99, 
the wheat stem rust. We do not have this problem, but it is an 
international threat, and I think our success will be measured 
by the avoidance of a problem that never reaches the United 
States.
    Mr. Kingston. Well, thank you.
    My time has expired, and I actually did have a question on 
UG-99, but, Mr. Latham, your turn.
    Mr. Latham. Thank you, Mr. Chairman.
    And welcome. It is good to see you. I guess my first 
question would be representing Iowa State, which obviously you 
are very familiar with, and I have heard a lot from my brother, 
as you well know.
    Dr. Woteki. I imagine so.

                          HATCH ACT REDUCTIONS

    Mr. Latham. He is very interested in agriculture research, 
certainly the dean and everybody, the president. With the Hatch 
Act cuts of about $11 million, and with Mac-Stennis cuts doing 
away with the ability of any Member to provide funding for 
research programs, certainly with extension being cut about $15 
million; what am I supposed to tell the people at Iowa State 
with the ongoing research that is going to be eliminated?
    Dr. Woteki. Well, I think that you recognize that the 
budget that we are proposing in 2012 is designed to address 
both the deficit and needed debt reduction. We have had in 
preparation of this budget to make what are really some very 
hard and I know painful choices. And the best advice that we 
can give to people in universities who are being affected by 
these proposals is to prepare proposals and submit them into 
the competitive grants program, for which we are requesting an 
increase, a significant increase in the 2012 budget.
    Mr. Latham. But what about the ongoing, long-term, basic 
research at the universities? You are keenly aware of how 
important that is for agriculture.
    Dr. Woteki. Yes. Most keenly aware. The very fundamental 
research, a lot of that--most of it, actually--is being 
supported through the competitive grants program. So again we 
would encourage people with that outlook to prepare proposals 
and to submit them.
    We recognize that the universities, through the experiment 
stations, make very good use of their Hatch Funds. And under 
the budget constraints that we're facing, though, we've 
recognized that we have to make some cuts, as much as we might 
not want to do so.
    Mr. Latham. Didn't we used to team up to stop the kind of 
cuts that you're talking about today?
    [Laughter.]
    Dr. Woteki. We would certainly like to do that.
    Mr. Latham. Well, I think it's obviously a real concern 
with anyone, with ongoing long-term research, what the effect 
is going to have.

                           COMPETITIVE GRANTS

    And you know very well that with the competitive grants, 
you're not going to have continuity; you're not able to hire 
people; you're not able to keep the known funding levels there, 
so that you can have the kind of basic research that we need in 
agriculture, that the private sector, you know, will not invest 
in, or can't afford to.
    And you know, I obviously have real concerns about that.
    And also, I guess the whole priority the Secretary was in--
was that a week or so ago--and the priority issues are now: 
Child obesity, climate change, global food security, food 
safety, energy, and biofuels.
    I just don't see where the basic kind of research that we 
need is anywhere in the priority list. Where is it on the list?
    Dr. Woteki. Well, first of all, to address your question 
about the model of using competitive grants to support long-
term fundamental research, if you look outside agriculture, at 
the other fields of science, whether it's biomedical research 
or physics or chemistry, I mean, that's the approach that other 
Federal agencies have used to fund research that's largely 
performed at universities or other research organizations 
outside of government.
    In agriculture, we have had the experience now with the 
National Research Initiative, and now named AFRI, and with a 
major emphasis on trying to increase that funding.
    We think the model will actually work well with 
agriculture, and are encouraging faculty to apply for 
competitive grants for those projects that were earmarks in the 
past.
    Mr. Latham. Okay. I don't know, am I out of time?
    Mr. Kingston. The gentleman's time has expired.
    Mr. Farr.

                      RESEARCH FUNDING MECHANISMS

    Mr. Farr. Thank you.
    I just got a breakdown: The formula grants are about 42 
percent, the competitive grants are 40 percent, the earmarks 
were about 15.6 percent, and administrative grants about 2 
percent, 2.3.
    We have wiped out the earmarks, so now, I mean, the formula 
is the biggest release of money. And that formula--and formulas 
always have windfalls and wipe-outs--I mean, people who were 
there at the time the formula was written usually get 
protected. And the newest or latest concerns don't get into the 
formula funding.
    And I understand what you've said so far is that a lot of 
this in formulas were there to protect the colleges who were 
around in 1862. The Hatch Act was 1887 it was written. So this 
is a pretty old law.
    And it does other things. It protects Black colleges, and 
so on. And I think the question is that if we're going have a 
limited amount of research dollars, whatever that amount is, 
that we really out to make them more competitive. And I can 
see, you know, Mr. Latham, he's right about the continuity.
    But at same time I hear from my universities that they'd 
much rather be in a competitive process than in a formula 
process, or in an earmark process.
    And, you know, for the leading--these are University of 
California statements, with big Ag universities, they think 
they'll get their fair share in a competitive process. It seems 
to me, if indeed this earmark's going to be, if we're going to 
ban them and not have them again, and the only way we can get 
access to new money is going to be in a competitive grant, then 
we've got to start checking on whether this formula process, 
which is almost 50 percent of all the money going out.
    And if it's a formula, you don't have to prove anything. 
You're on that list, you get your money. You just get a check. 
There's no competition, there's no relevancies, essentially.
    How serious are you looking at what we could do? It could 
be a huge blow-back politically, because to a lot of the 
universities, this is a check they don't want to give up.

                   ACCOUNTABILITY OF FORMULA FUNDING

    Dr. Woteki. Well, first of all, let me address the question 
of accountability within the formula funds. Each of the 
universities that receives funds through a formula is required 
to put together a plan that is approved by NIFA.
    Mr. Farr. Can you veto it? Have you ever vetoed--once they 
have the plan, is it kind of measurable for quality, or 
anything?
    Dr. Woteki. Let me ask Dr. Beachy to describe to you how 
they review the plans, and the kind of interaction that goes on 
with the universities.
    Dr. Beachy. Thank you, Congressman. Each of the funds that 
would go to a State is broken down to individual projects. 
Those, then, come in as individuals through a Grants.gov 
process.
    They are then reviewed by a national program leader--an 
NPL. There's a lot that we can't say, but if it's a bad 
project, we simply send it back and say that's not an 
appropriate use.
    So there is some monitoring, but it is not nearly to the 
extent that it would be in a competitive grant. You're correct 
in that----
    Mr. Farr. The reason I'm doing this line of questioning is 
that it really got down to--I mean, when when I first came on 
this committee, I was told that there's just an awful lot of 
money flowing out there to do irrelevant research.
    And I think Mr. Kingston's raised that also. And I mean, if 
we have a limited amount of funds, we don't want to spend it on 
irrelevant research, when there's really cutting edge research 
that we ought to be doing. We're in a competitive world. We got 
to get outproduct to market.
    America's greatest economic asset is its seed corn of 
creativity, it's intellectual capacity. Nobody's been able to 
rob that from us yet. They maybe build what we invent somewhere 
else, but we invent it.
    And so this is so cutting, I mean, in agriculture still 
being a huge part of our economy, if we're going to stay ahead 
of the world, we're going to have to put a lot of money up 
front, right where you are.
    And if we're going to limit that money, we got to make sure 
that that money is going to the most worthwhile or essential 
research.

                AGRICULTURE AND FOOD RESEARCH INITIATIVE

    Dr. Beachy. We believe that that's what AFRI does. AFRI 
receives input from stakeholders, and they help us to identify 
what the key priorities are.
    And then we formulate our RFAs, or our calls for proposals. 
And then the competition starts.
    And we do keep this clear of as much politics as possible. 
We try to rate the best grants, and then award those to those 
that are most deserving.
    And it's our ability to identify the important needs, 
whether it's in a viticulture genomics, or it's in aquaculture 
or another area of high priority, we want to be able to put 
those out to bid to the best scientist.
    And so by growing AFRI and identifying the important 
components, those things that are important for the success of 
American economy and agriculture, we then can put these calls 
out for the best to compete.
    And we find that that brings out the greatest creativity, 
it brings out the best teamship that we could possibly find 
between sciences and different disciplines, where the economist 
talks to the bench scientist, and he talks to the field 
scientist, and they come up with a project that solves a 
problem for American agriculture in regional ways that these 
other funds don't.
    That said----
    Mr. Farr. The other funds, this is competitive grants that 
you're talking about?
    Dr. Beachy. Competitive grants.
    Mr. Kingston. The gentleman's time is expired. And now that 
we have more members here, we're going to have to get back a 
little more formally to the five-minute rule. So.
    Mrs. Emerson.
    Mrs. Emerson. Thanks, Mr. Chairman. Welcome, all of you. I 
apologize for being late.
    Let me follow up on this discussion of research. And it is 
very frustrating for all of us who represent ag districts, to 
see that the NIH spends $170 for every one dollar spent by USDI 
and competitive fundamental research.
    And I mean, it's pretty lopsided funding, if you ask me. 
And certainly, given the fact that the very essence of life 
science begins with the food we eat, this is a problem.
    But that being said, let me follow up, Dr. Beachy, with 
what Mr. Farr was asking you. What's the total amount of 
research grant applications received by AFRI for last year? Or 
total amount you've gotten----
    Dr. Beachy. Congresswoman Emerson, it's nice to see you 
again.
    The amount that we received this year end for AFRI funding 
was $4 billion in requests, from 500 research institutions.
    Mrs. Emerson. So you had 500 research institutions apply?
    Dr. Beachy. Yes. Including our land grant colleges and 
universities. These are from medical schools, and from research 
institutions that are private, and that are public.
    It's an enormous degree of interest of scientists around 
the country in all of our institutes, who want to solve these 
problems of obesity, of fertility of our crops, and 
productivity of lands.
    It's an amazing interest.
    And so we had $4 billion of requests, and our award level 
would be something around $250 million.

                  AGRICULTURE-RELATED SCIENCE AND AFRI

    Mrs. Emerson. And what percentage of that was spent on 
agriculture-related science and--I mean, because I consider 
obesity to be--I mean, questioning as to whether I would say 
it's agriculture-applied science.
    But you know, we used to do soybeans and nematode research, 
and you know, snail-darter research, or whatever. I'm being a 
little facetious about snail darters. But seriously.
    So how much is spent on just good ag research as it applies 
to making crops more resistant, I mean, to actually coming up 
with seed varieties that would be more tolerable in a dry 
climate and those things, versus obesity and other things?
    Dr. Beachy. Now see, I'd have to get back with the exact 
numbers. The amount that would be in our Institute for Food 
Production and Sustainability, compared to those that would be 
in the area of climate, which includes new drought tolerance 
work----
    Mrs. Emerson. Okay.
    Dr. Beachy. So a lot of the drought tolerance work that 
would be in that institute would also feed over into the Food 
Production Institute.
    I don't have----
    Mrs. Emerson. Well, if you can get me that information.
    Dr. Beachy. I'd be glad to.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mrs. Emerson. And I'd love to see just a breakdown of all 
of the money that was given out to each institution.
    Dr. Woteki.
    Dr. Woteki. Yeah. We're happy to supply that. But I would 
respond that all of the research that's sponsored under AFRI 
does fit within the mission of the Department of Agriculture.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                        HUMAN NUTRITION RESEARCH

    We have from well over a hundred years supported human 
nutrition research. A lot of the identification of essential 
nutrients for human health has come out of research that was 
funded by the Department of Agriculture.
    And our mission is to identify what aspects of nutrition 
are necessary for maintaining good health. And NIH's 
responsibility is to fund research that really focuses on the 
role of nutrition in disease.
    So we have, you know, identified a very appropriate role 
for the research that we fund in human nutrition.
    Mrs. Emerson. Well, and I'm not--I think it refers back to 
what some of our land grant colleges were doing. And so we just 
want to be sure that they're getting their fair share.
    Can you tell me currently how much of the aggregate U.S. 
investment in agriculture research is made by the private 
sector, in comparison to the public sector, both federal and 
state governments? And in your opinion, why is it important to 
make sure the federal investment in Ag research, particularly 
competitively-awarded research, is strong?
    You know, why don't we rely exclusively on the private 
sector?

          PRIVATE SECTOR VERSUS PUBLIC SECTOR RESEARCH FUNDING

    Dr. Woteki. Yeah.
    Well, the private sector does fund over half of the food 
and agriculture research. The best figures that I have are from 
2006, when the Economic Research Service did an in-depth 
analysis of private sector food and agriculture research and 
government research. And at that time, the private sector's 
contribution was about $6.8 billion, the Federal contribution 
was about $3 billion, and the states' $1.3 billion.
    Mrs. Emerson. Okay. Thank you.
    Mr. Kingston. Mr. Bishop.
    Mr. Bishop. Thank you very much.
    To follow up on the line of questioning from Mrs. Emerson, 
isn't it true that quite often the Federal Government partners 
with the private sector, where specifically identified needs 
are ascertained with regard to research?
    The research may be too expensive for the private sector to 
do it alone, and try to look after their bottom line.
    And it also is driven by identified needs that the private 
sector has, in terms of better food and nutrition products, for 
example.
    And so there's a combination of both that, in working 
together. For example, the peanut industry works very closely 
with various land grant universities, Baylor University, even 
on the issue of nutrition and obesity. The Peanut Institute has 
worked very closely for a number of years with Baylor 
University on obesity research, which has been very, very 
promising.
    I was going to ask you about your proposal, which includes 
$7.5 million of research on nutrition and health, which 
includes obesity.
    And of course, obesity is one of the number one health 
threats, that triggers a plethora of diseases, including 
diabetes, heart, kidney, and other diseases; but can be 
prevented with proper nutrition and a healthy lifestyle.
    Can you share with us whether ARS is involved with the 
First Lady's initiative on obesity? And are there other 
government initiatives in this area? And what impacts will the 
reductions that were contained in HR 1 have on the agency's 
obesity research?
    Because our kids are growing too fat to fight. And that's 
becoming a national security issue. And of course, the 
Department of Agriculture has always, in fact, started the 
school lunch program, to make sure that our youngsters would be 
fit to fight, if necessary.

                        HUMAN NUTRITION RESEARCH

    Dr. Woteki. Well, I think you've asked two different lines 
of questions.
    With respect to the work that's being done by the 
Agricultural Research Service, and the Let's Move campaign of 
the First Lady, there's a lot of research that's done, that 
supports not only the understanding what the nutrient 
requirements are for children during growth, but also that 
supports the dietary guidelines for Americans, which is the 
best synthesis that we have of the research that's supported, 
not only by USDA agencies, but also by the National Institutes 
of Health.
    The increase that is requested in the President's budget 
for ARS in human nutrition is specifically to identify what the 
barriers are for the public in achieving those dietary 
guidelines.
    So that is, I think, going to provide us with a lot of 
insight, so we're going to help the First Lady and the Let's 
Move campaign to be more effective in helping parents in 
managing the nutrition of their children, as well as the 
activity levels, so that they maintain a health-supporting 
diet, and a healthful weight.
    So the budget request does specifically include that in it.

                                EARMARKS

    Mr. Bishop. Thank you very much for that answer.
    I'm very, very frustrated by the loss of earmarks, because 
a number of rural communities, 1890's, 1860 land grant 
universities have historically continued the valuable research 
with the use of earmarks. And Mr. Farr pointed out that it will 
eliminate quite a bit.
    And I'm looking at the research now with competitive 
grants, which is going to place the 1890s at a very, very 
competitive disadvantage, because they have been historically 
underfunded over the years.
    And we've just gotten to the point, through earmarks and 
through some cooperation, that has allowed them to start 
participating.
    Now with the cutback and going to the competitives, you're 
going to undo what was a process to remedy the effects of past 
discrimination.
    So I'm very concerned with that. And I'm hoping that you 
can, through USDA's leadership, offer some kind of incentives 
for the major 1860s and 1890s to work together cooperatively on 
some of the research projects that are funded, and that you'd 
look favorably on that.
    Mr. Kingston. And the gentleman's time has expired. So 
you'll need to respond in writing, or on the next round.
    Mrs. Lummis.

                          BRUCELLOSIS RESEARCH

    Mrs.  . Thank you, Mr. Chairman. The gentleman just teed up 
my remark. So thank you.
    My question is about Brucellosis funding. You know, I'm 
from Wyoming. And APHIS recently implemented this interim rule 
on Brucellosis regulations. So it's refocusing Agency 
researchers to the area of prevention and control of the 
disease in the Greater Yellowstone area.
    Now I did a little stint on the GYIBC, the Greater 
Yellowstone Interagency Brucellosis Committee, representing my 
state, Wyoming. And we knew 15 years ago, when I was on the 
GYIBC, how to control and manage its temporal and spacial 
separation of bison and elk from cattle.
    But the real issue that we need is an effective vaccine. 
Because we all vaccinate our heifers for Brucellosis. But it's 
not an efficacious vaccine, especially when it comes to the 
transmission from elk and bison to cattle.
    So we need a better vaccine.
    What authority do you need from Congress to expand the 
efforts to get a better vaccine? What are you doing now to 
develop a better vaccine?
    And then I want to follow up with a question about the 
formula funding versus the competitive grants that follow on 
the line of questioning of the gentleman.
    Dr. Woteki. Well, with respect to the formula, and the 
earlier question, we have taken steps in our budget proposal to 
essentially protect the 1890s colleges and the 1994s--the 
tribal colleges.
    So the formula allocation to those entities remains flat 
constant. And in the case of the tribal colleges, there's a 
slight uptick. Because we recognize that they're very 
important. I could just say parenthetically that actually the 
1890s have been competing very well within AFRI.
    To the question of Brucellosis in the development of an 
effective vaccine, the Ag Research Service has worked many, 
many years with APHIS on research on Brucellosis for the 
purpose of developing a more effective vaccine.
    And I'd like Dr. Knipling to comment on that work.
    Dr. Knipling. Yes. Brucellosis, as you've already 
acknowledged, is a very old but still very important continuing 
problem.
    The vaccine development actually goes back more than 15 
years, probably 25. It's very effective on cattle.
    Mrs. Lummis. Mm-hmm.
    Dr. Knipling. It's called RB51, as you may know.
    Mrs. Lummis. Yes.
    Dr. Knipling. Very effective on cattle. But the challenge 
is the wildlife interface with bison and elk.
    Mrs. Lummis. Yes.
    Dr. Knipling. It is also effective on bison. But the 
delivery problem is difficult. It actually takes two 
inoculations for bison, even if we could effectively deliver 
it.
    It is not effective on elk.
    Mrs. Lummis. Right.
    Dr. Knipling. They have a different immunology system.
    But anyway, we do have a continuing research program to 
support the cattle and swine industry, also the wildlife 
interface, and of course, technical support for APHIS.
    This work is carried out at Ames, Iowa, at the National 
Animal Disease Center, where we're investing about $3.5 million 
per year. It is focused on understanding the interaction of the 
vaccine with the immunology of the wildlife species.

               ANIMAL HEALTH AND DISEASE RESEARCH PROGRAM

    Mrs. Lummis. Thanks, Dr. Knipling. A followup question. Do 
you expect if funding goes for the Animal Health and Disease 
Research program, and becomes competitive versus formula-
funded, do you think it will go under an existing account in 
NIFA? And would Brucellosis vaccine research be eligible to 
compete for grants under that account?
    Dr. Woteki. Perhaps I could answer that.
    Mrs. Lummis. Thank you.
    Dr. Woteki. Yes, the Animal Health and Disease Research is 
a candidate for funding in the competitive grants program. And 
just to illustrate that it is included already in AFRI, this 
week, there is a request for applications that has been 
announced from NIFA. And within that, Brucellosis research 
towards improved vaccines is included.
    Mrs. Lummis. Okay. Great. Well, we've noticed that a lot of 
these grants have been awarded for dairy cow diseases, like 
tuberculosis and mastitis and pneumonia.
    Dr. Woteki. Mm-hmm.
    Mrs. Lummis. But this remains a huge problem in the Rocky 
Mountain area. So thank you, Mr. Chairman.
    Mr. Kingston. Thank you.
    Mr. Nunnelee.
    Mr. Nunnelee. No questions.
    Mr. Kingston. Mr. Farr.

                       FORMULA FUNDING ALLOCATION

    Mr. Farr. Let me get back to--I really want to know if 
we're shaping some new policy. I mean, the formula grants, the 
responsibility for your department is--well, it's essentially 
research. Right?
    Dr. Woteki. Research, education, economics, yes.
    Mr. Farr. So I guess the question really goes down to: What 
is the value of the formula of funding in today's competitive 
world?
    Because the formula funding essentially gets 20 percent to 
each state, equally. Not less than 52 percent of the states as 
follows: One-half in the amount proportionate to the relative 
rural population of each state, to the total rural population 
of all states; and one-half in the amount proportionate to the 
relative farm population of each state, and to the total farm 
population of all states;
    Not less than 25 percent for multi-state, multi-
disciplinary, multi-institutional research activities to solve 
problems concerning more than one state; and three percent for 
the administration of the Act.
    I mean, I'm not going--but it's not based on what's the 
fire that needs to be put out today?
    Dr. Woteki. From a national perspective? That may not be 
the case. But from the state perspective, the formula--and 
again, I'm speaking as a former dean, as well as an 
administrator of formula funds now in my present capacity.
    Mr. Farr. What state were you a dean in?
    Dr. Woteki. In Iowa.
    Mr. Farr. Iowa? Okay.
    Dr. Woteki. And----
    Mr. Farr. Third largest Ag production state in the country.
    Dr. Woteki. Right. And so the formula funds played a very 
important role in providing the infrastructure for the research 
that we did, that was very specific to the needs of farmers in 
Iowa.
    The additional requirement that you mentioned that related 
to multi-state research, was actually very important in 
bringing together the land-grant universities not only in a 
specific region, but also across the country, to address some 
common problems.
    So dairy science, for example. A lot of research that 
supports finding solutions for the dairy industry is not so 
site-specific. But under that requirement for the formula, it 
has encouraged the dairy science departments in the land grant 
colleges to work collaboratively.
    Mr. Farr. So for the infrastructure to be maintained, which 
is important for academic reasons, then you need to have some 
of this grant money.
    But on the other hand, I mean, I'm from California, I'm not 
from Iowa. California produces three times more agriculture 
than Iowa. We produce twice as much as the number two state, 
called Texas.
    And yet in the formula funding, Iowa gets more money than 
California. So I see where you would be very supportive of 
formula funding.
    But from a fairness standpoint and from a critical issue on 
productive agriculture, why should it be that way? Why should 
we grandfather in a formula?
    I mean, first of all, we've taken away our only flexible 
tool, which is earmarks. And I'm a big defender of earmarks. I 
tell people, ``If you don't like earmarks, the next time you 
write a check, just leave it blank. Put the money in, sign the 
bottom, and send the check in.'' They'll figure out how to cash 
it.
    ``Well, I can't do that. I don't trust where it will go 
to.'' I said, ``Well, that's what earmarks are. We put the name 
on the check.''
    So and I'm trying to find out if we follow through, and 
we're not going to have any more earmarks, then all this 
committee is going to do is be able to decide how much money we 
put into the formula account, and how much money we put in the 
competitive grant account.
    And I think we're in a lot of hurt, if we don't figure out 
how to do this a little bit more relevant to modern times.
    Mr. Kingston. The gentleman has 30 seconds, if you want to 
respond in that time.
    Dr. Woteki. I think it was a rhetorical----
    Mr. Kingston. Oh, it wasn't rhetorical. But it was a 
statement.
    Mr. Farr. Well, I'm interested in finding the intellect 
that's going to come out of the USDA on these challenges. I'm 
asking this big----
    Dr. Woteki. And as I've said earlier, the formula funds 
provide a very valuable infrastructure within states, that 
allows them----
    Mr. Farr. But are they fair?
    Dr. Woteki. They have----
    Mr. Farr. Is it fair that Iowa gets more money than 
California?
    Mr. Latham. Yes.
    [Laughter.]
    Dr. Woteki. I would very politely like to point out that 
the formula is actually determined in our legislation. So it's 
not an issue that I can opine on at this point; but we would 
certainly like to look forward to a dialogue about the future 
funding of agricultural science.
    Mr. Farr. There's no Harkin in that formula?
    Mr. Kingston. The gentleman's time is expired. But on that 
line of questioning, I would like you to submit for the record 
how some of these institutions which did not get a reduction, 
how they are contributing to the research?
    I'd like to know if this is a political decision not to 
reduce certain funding flows, or if it's a scientific decision. 
And it looks to me that it could be political.
    [The information from USDA follows:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    I wanted to ask Dr. Smith a question. You've researched the 
various agriculture programs, correct?
    Dr. Smith. Yes.
    Mr. Kingston. And would that be crop programs included?
    Dr. Smith. Yes, sir. We're looking across the board at 
marketing programs, programs that support production, and 
conservation programs. Yeah, the whole gamut.

                             FARM PROGRAMS

    Mr. Kingston. As we go into Farm Bill, it would be very 
helpful for us to know how you rate certain programs. Because 
often, our testimony comes from people who are the users of it, 
who think it works great.
    And you know, there's nothing remarkable about free money. 
It always works for the recipient.
    Dr. Smith. Mm-hmm.
    Mr. Kingston. And that's how often programs are presented 
to us. ``Oh, this is a really good program.''
    Farm programs particularly, do some come to your mind that 
are probably marginal and some are great?
    Dr. Smith. I'm not prepared to rate them right now. But 
what we do attempt to do is look at variations on a theme. What 
are different alternative ways of achieving a particular goal?
    Mr. Kingston. Mm-hmm.
    Dr. Smith. And provide information on effectiveness and 
cost for a variety of options, and let the raters----
    Mr. Kingston. Well, you would look at, say, the Peanut 
Program or the Dairy Program. Correct?
    Dr. Smith. Correct.
    Mr. Kingston. And you would be in a position to say, ``Some 
of this is great, some of this is not so great''?
    Dr. Smith. We can talk in terms of the consequences of the 
program. Whether they're good or bad I think is in the judgment 
of the person who's----
    Mr. Kingston. Well, for the dollar spent and the dollar 
returned, and whatever impact, I think that would be very 
important.
    What do you think of the Market Access Program?
    Dr. Smith. I don't have an opinion on the Market----
    Mr. Kingston. It does come under you, though, right?
    Dr. Smith. No. I mean, it doesn't come under----
    Mr. Kingston. That's not one you look at?
    Dr. Smith. Actually, I believe we do look at that, yes.
    Mr. Kingston. I don't expect a specific answer right now. 
But I think if you could submit something to the record, and 
help us make some determinations.
    Also CRP comes under you?
    Dr. Smith. Well, it's an FSA program, but yes, we do 
examine----

                     PROGRAM ASSESSMENT RATING TOOL

    Mr. Kingston. I think we would be interested in looking at 
some of this.
    You know, there's something, and I can't remember what it's 
called--somebody might know--that rates government agencies--
it's like BEST? Or the PERC Program? Or something like that? 
PARK, PARK. You're familiar with PARK?
    Dr. Smith. No. No, sir.
    Mr. Kingston. What does PARK stand for? I can't remember.
    Dr. Smith. Oh, PART, oh, yes. Yes, I am familiar with----
    Mr. Kingston. I don't know why when I say ``K,'' you know, 
I mean a T. But do you have a PART-type rating that----
    Dr. Smith. No, typically the agencies that conduct the 
programs do their own assessment of performance and results. 
But we are likely informing their assessment through the work 
we do on the implications of different alternatives.
    But I can certainly provide for the record----
    [The information follows:]

    ERS research on farm programs can show the economic implications of 
alternative ways of achieving a policy goal. For example, conservation 
programs such as the Conservation Research Program (CRP), Wetland 
Reserve Program and the Environmental Quality Incentives Program (EQIP) 
produce a variety of environmental benefits--they reduce cropland 
erosion--leaving our air and waters cleaner and soils healthier. While 
these non-market environmental impacts are difficult to monetize, we 
estimate that reductions in soil erosion by the CRP are provide more 
than $380 million in water quality benefits, $68 million in air quality 
benefits, and $120 million in soil productivity benefits, annually. The 
CRP's annual wildlife-related benefits exceed $720 million. ERS would 
be happy to provide you and your staff with a briefing on questions 
concerning the economic evaluation of USDA programs.

    Mr. Kingston. Is there an assessment of these programs in 
terms of dollars spent, which ones are good and which ones 
aren't so good?
    Dr. Smith. Not in terms of good and bad. But----
    Mr. Kingston. Can you help us get to where we need to be?
    Dr. Smith. Yes. Yes.
    Mr. Kingston. Because really when we go into the farm 
programs and all these things are under scrutiny, some of them 
do work better than others. And I think if you can help shed 
some light on that, it would be enormously helpful for this 
committee, because every time we go to the House floor, there 
is somebody who wants to eliminate a program, and then suddenly 
we're in this position of trying to defend something that, you 
know, we weren't ready for that debate.
    Now I know this isn't a program, but the WTO found the USA 
in violation for subsidizing cotton. And part of the settlement 
was $147 million a year to Brazil. And if not, they would have 
slapped on over $800 million in tariffs to us.
    But one of the critics of the program on the House floor 
said, ``Okay, I understand this now. What we're doing is we're 
bribing the farmers in Brazil, in order to continue subsidizing 
farmers in America.''
    And those of us, trying to defend the expenditure, we're 
kind of out there on a limb--you know, somebody has a little 
clever slogan like that, and we get caught off base.
    And so it would be very helpful, before this bill goes to 
the floor, to have some of your ideas, and know what we should 
fight for and what we should not fight for.
    Dr. Smith. Well, I appreciate the opportunity to inform the 
whole Farm Bill process, with respect to programs. And we'll do 
whatever we can to do that. And I invite you and members to 
request through the USDA any particular kinds of programs on 
which you have economic questions.
    Mr. Kingston. Well, thank you. Mr. Latham. Or Mrs. Emerson? 
No, it is Latham, excuse me. It's going by looks. No, I'm going 
to go by subsidies, and you go first. By research dollars, Mr. 
Latham is granted one hour.
    [Laughter.]
    Mr. Latham. Mr. Farr, you're welcome to move to Iowa. 
That's fine. But----
    Mr. Farr. Without subsidies?
    Mr. Latham. Sure.
    Mr. Farr. It wouldn't be a state.
    Mr. Latham. What else could I have done this morning?
    Something, anyway.
    Mr. Kingston. Would it be a good time to talk ethanol? I 
don't know.

                 ANTIBIOTIC USE AND PATHOGEN RESISTANCE

    Mr. Latham. Okay. Just for the gentlewoman from Wyoming. 
There is elimination of university funding for animal disease. 
And it's a small amount, but you do get some funding at the 
University of Wyoming that's into their budget proposal, which 
should be eliminated.
    But the big issue in livestock production, mostly with 
hogs, is the use of antibiotics as far as keeping animals 
healthy, and so we have safe, healthy animal food and have a 
healthy food supply.
    And the Department, I think is you're asking for $10 
million increase for food safety research. Some of this money 
is to be used to address and evaluate alternatives to 
antibiotics in food animals.
    I don't know who wants this, whether it's ARS or as far as 
what the intent is, what are the priorities, what are you 
trying to find out?
    Whoever wants it.
    Dr. Woteki. So the Department does participate and our 
research agencies do participate with the National Institutes 
of Health, Centers for Disease Control, Food and Drug 
Administration, in a taskforce that is focused on appropriate 
antibiotic use, both in animal as well as in human health.
    And I'd like to ask Dr. Knipling to address the specific 
role that ARS has in this.
    Mr. Latham. Good. And give the purpose of the research. Are 
you trying to eliminate antibiotics? Or what are you charged 
with?
    Dr. Knipling. Okay.
    Yes. Of course, antibiotics, as you say, are used to 
prevent infectious diseases, or prevent pathogens that would 
cause food safety concerns. And of course, the issue is the 
fairly widespread use of this is then leading to resistance of 
these pathogens, which also then have implications for human 
health.
    So that's the basic issue.
    We have dual approaches. Actually the USDA is participating 
with CDC and APHIS, and even the private sector, to actually 
monitor this activity, particularly in swine.
    This work is really centered at Athens, Georgia. But it 
certainly has national application.
    But in terms of the proposed budget enhancement that's in 
the fiscal year 2012 budget--to look at alternatives--and it 
basically would focus not only on the monitoring of the trends, 
but also to support some of the more traditional food safety 
prevention technologies, the animal health infectious disease 
prevention technology, so that the antibiotics would not have 
to be used to the extent they are now.
    Mr. Latham. And are you taking into consideration I guess 
the economics, but also the fact as far as having a safe food 
supply, of allowing animals to get sick, and then treating 
them? Or is there an equation that says: Having healthy animals 
to begin with is going to be much better as far as safe food 
supply for humans, rather than to wait until they get sick and 
then really load them up?
    Dr. Knipling. Yes. Very much so. The focus would be on 
prevention or avoidance of the problem in the first place. 
Other forms of nutrition supplements, probiotics, and so forth 
would be another approach to the alternatives to the 
antibiotics themselves.
    By all means, the approach is on prevention and avoidance.
    Mr. Latham. So when will we have results? When will we know 
if there is an equation or a comparison? Or what the benefit 
is?
    Dr. Knipling. Well, the monitoring that's been underway for 
some time, already there are significant results coming out of 
that work. And we could provide some of that information.
    Mr. Latham. Okay.
    Dr. Knipling. It does suggest that yes, in some cases, 
there are problems and concerns. But also that data shows that 
this is not as severe an issue as it might be otherwise 
portrayed.
    In terms of----
    Mr. Latham. Do you want to say that again? Would you repeat 
that again, that this is----
    Dr. Knipling. Yeah. Some of that data and trends show that 
the resistance is not developing to the extent as otherwise 
might be portrayed. In other instances, yes.
    It depends on the antibiotics themselves, the type, and the 
animal and the whole combination of factors.
    In terms of the new initiative, of course, any new research 
initiative is a fairly long-term investment. So we won't 
suggest instant gratification. But it's important to invest in 
this line of work----
    Mr. Latham. We don't get much of that around here anyway, 
so----
    Mr. Kingston. Mr. Bishop.
    Mr. Latham. If I can, I am going to have to leave. I am 
going to be submitting questions for the record.
    Thank you, Mr. Chairman.
    Mr. Kingston. Do you yield your time to Mr. Farr 
permanently?
    [Laughter.]
    Mr. Latham. Not the money.
    Mr. Kingston. Mr. Bishop.

                       BUDGET CUTS AND PRIORITIES

    Mr. Bishop. Thank you very much.
    I note that the Research Education and Extension Programs 
are funded at a total of $2.274 billion in the proposed budget 
for fiscal year 2012, which is $472 million less than fiscal 
year 2010 or 16.6 percent less. H.R. 1 reduces the research 
area by a total of $415 million. The President's budget reduces 
ARS in 2012 by $113 million or 9 percent; the Institute of Food 
and Agriculture by $141 million or 10 percent; and ERS gets a 
bump up by about $4 million, approximately 5 percent.
    Do you really think that you will be able to do what is 
necessary to keep the United States on the cutting edge of 
producing the highest quality, the safest and most abundant 
food and fiber and fuel now in the industrialized world, and 
the most economical, if you have the cutbacks, if as we go into 
the farm bill the Economic Research Service has not had the 
adequate funding to inform us for the policy decisions that we 
have to make going forward to make sure that we are competitive 
in the global marketplace, given the WTO and given all of the 
other restraints we have in supporting our research as compared 
to our competitors?
    Do you really feel like you have what you need, or are you 
really restrained by having to just cut back because you have a 
mandate to cut the budget?
    I mean are we cutting back essential research as opposed to 
just optional varieties of research that we really do not need 
to do to remain competitive?
    Dr. Woteki. Congressman Bishop, we recognize that we are 
being asked to contribute to helping with the deficit as well 
as with the debt. In putting together this budget we have 
identified the areas that we believe are of the highest 
priority to keep American agriculture competitive and to meet 
the needs of farmers, as well as consumers, in the United 
States.
    So we have proposed shifting some funds into these higher 
priority areas, and we at the same time, as we have been 
talking earlier through this hearing, have proposed one of the 
ways to make some savings is to eliminate earmarks that are 
currently in the budget for this mission area.
    So that is the approach that we have taken, and we, like 
other research agencies, are being called on to make some very 
hard decisions about what our priorities are.

                                EARMARKS

    Mr. Bishop. Well, the truth of the matter is that what we 
are doing is rather than having congressionally directed 
funding, we are now having agency directed funding because the 
agency will decide what the earmarks are, as opposed to the 
Members of Congress.
    And I feel Mr. Farr's pain, and perhaps you are not quite 
as sensitive to that pain being from Iowa, but that is where--
--
    Mr. Kingston. If the gentleman will yield.
    Mr. Bishop. I will be glad to yield to the Chairman.
    Mr. Kingston. It may be of interest to the people on our 
side of the aisle that the administration may make some 
decisions that tilt blue State politics rather than red State 
politics, and I do not know that people have quite grasped that 
as much.
    Mr. Bishop. Reclaiming my time, I thank you.
    I also am sensitive to the fact that much of the policy on 
agriculture is driven by the politics of the region as opposed 
the red/blue States. The southeastern region has peculiar needs 
and difficulties with the portfolio of crops that are grown 
there, which are quite different from the Midwest and the West. 
Of course, the earmark process allows the Members of Congress 
who come from those areas that have unique needs to address 
those, when those are the major policy makers on the executive 
branch side may or may not be sensitive or even knowledgeable 
of the peculiar needs of the particular region's agriculture.
    And that troubles me very much with regard to the research 
funding and the other funding.
    Dr. Woteki. Congressman, in developing the priorities that 
informed our budget, we have done a lot of consultation. The 
agencies that are represented in front of you meet frequently 
with the different commodity organizations. They hold listening 
sessions where they bring together from across the country 
representatives of not only the farmers groups, but also the 
industries that are part of the wonderful agricultural economy 
that we have in this country.
    So the planning that went into these budget priorities was 
informed by a lot of consultation with stakeholders.
    Mr. Kingston. The gentleman's time has expired.
    Mrs. Emerson.

                   HEALTHY FOOD FINANCING INITIATIVE

    Mrs. Emerson. Thanks, Mr. Chairman.
    Dr. Smith, my question goes to you with regard to the 
Healthy Food Financing Initiative. And as one who has a very 
rural district that would have any number of what you would 
consider to be food deserts, this is very much of interest to 
me.
    But I am a little confused. So perhaps you can clarify 
things. Your all's budget included a request for $2 million for 
ERS to support the initiative, and I think in your testimony 
you state that the additional funding would be used to gather 
and analyze data about communities and help answer questions 
about how the development of local food sources would affect 
food choice and diet, quality, et cetera, and that would then 
supplement the information that you already have on the Food 
Environment Atlas, which has 168, yes, indicators of 
communities' food environment.
    So this information is being gathered to technically 
support the initiative for which the administration requested 
$400 million last year, of which $50 million more or less goes 
to the USDA, $275 to the Treasury Department, and the rest to 
HHS.
    So since you did not get the money or no monies were spent 
at least on Healthy Food Initiative, I was worried that you all 
had, in fact, spent money on something and now you are 
gathering information after you have already spent money. So 
explain to me how this is going.
    Because there was a request last year, but this year you 
are requesting money for more research, I suppose. Why would 
you ask for money for something or why would the department ask 
for money for something if you did not have the information or 
data necessary to implement a policy?
    Dr. Smith. What we are doing is working closely with the 
Department of the Treasury and HHS to use the knowledge we have 
about the food environment to develop metrics, indicators that 
could be used to judge the success of a healthy food financing 
initiative or any other initiative to improve food access 
within a region.
    Mrs. Emerson. So the research that you would do would be 
not only for USDA, but for Treasury and HHS at the same time.
    Dr. Smith. Yes, we are working collaboratively.
    Mrs. Emerson. Okay. And after looking through all of the 
criteria or the different indicators, if you will, is it 
possible that at any point in time anyone in administration at 
the university--it does not matter who it is--could actually 
have so much data available that they can manipulate it to 
produce any results they want?
    Dr. Smith. I would find that unlikely that the data could 
be manipulated. They are public data. They are all well 
grounded. If individuals went to pick and choose indicators, I 
suppose that could present a different picture than picking 
other indicators.
    But they are all there to inform local governments, county 
governments, and sub-county areas actually about the state of 
their area.

                              FOOD DESERTS

    Mrs. Emerson. So with all of the indicators that you have, 
168, do you know how many counties do not show some indication 
of being in a food desert?
    Dr. Smith. I am sure I could get you that information. I do 
not know that off the top of my head though.
    [The information follows:]

    Eight of the 168 indicators in the Food Environment Atlas are 
measures of grocery store access and proximity. These indicators--which 
are from the ERS food desert report to Congress--provide count and 
percentage numbers of the households in a county that live more than a 
mile from a supermarket or large grocery store (for urban areas and 
urban clusters) or more than 10 miles from a grocery store (for rural 
areas) and do not own a car.
    Based on these indicators, USDA estimates that there are 6,500 
census tracts that are food deserts--low-income census tracts where a 
substantial share of residents has low access to a supermarket or large 
grocery store. There are 1,851 counties in the U.S. that contain at 
least one of these food desert census tracts, so 1,290 counties (41.1 
percent of all U.S. counties) do not have at least one food desert 
census tract.

    Mrs. Emerson. Okay. I would appreciate it because, I mean, 
you have got a million ideas, some of which are important. I 
mean, I would grant you that, but it is interesting that only 
one among the 168 indicators indicates persistent poverty 
counties, and I have 14 of those out of 28 in my district, and 
I would think that that would be far, far bigger, should carry 
much more weight, I guess, than some of the things that you 
have already got on here, like the number of fast food 
restaurants and/or full service restaurants.
    Dr. Smith. We also have employment rates and other 
indicators of the health of the area.
    Mrs. Emerson. But if a county is a persistent poverty 
county----
    Dr. Smith. It is a big deal.
    Mrs. Emerson [continuing]. Then to me that is an indicator 
in and of itself.
    Dr. Smith. Agreed.
    Mrs. Emerson. All right. I would like to get some more 
information if you would not mind.
    And, Mr. Chairman, I have other questions to submit for the 
record.
    Mr. Kingston. Okay. Thank you.
    Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman.

              DUPLICATION OF STATISTICAL DATA COLLECTIONS

    I am concerned about the duplication of statistical 
collections. Is the National Agricultural Statistics Service 
the exclusive data collection agency for USDA, or does the Risk 
Management Agency collect data, or the Farm Service Agency? Do 
they collect data independently?
    Dr. Clark. Those agencies that you mentioned collect 
information as part of program participation. Our data is 
collected to provide statistical information, and we use their 
data to the extent that it is possible in producing estimates 
and forecasts.
    Much of our data is produced as forecasts, which is ahead 
of the time in which the program participation data is 
available.
    Mrs. Lummis. So are you suggesting there is really no 
overlap?
    Dr. Clark. Not in terms of the data that is used for 
producing statistics between those agencies that you have 
mentioned.
    Mrs. Lummis. Okay. Are there terms where there is overlap?
    Dr. Clark. We are working very closely to use their data to 
the extent possible to minimize the respondent burden on our 
respondents, the farm operators and producers, so that we do 
not have to ask questions and ask for information that we can 
get from alternative sources.
    Mrs. Lummis. Good, good. That is good to hear.

                   HEALTHY FOOD FINANCING INITIATIVE

    Now, switching to this Healthy Food Financing Initiative, 
the administration has proposed an over $400 million 
initiative, and we have been talking about this, and it looks 
like you are planning the research to justify the initiative 
after it is already begun. So my question is: why weren't these 
studies conducted beforehand?
    Dr. Smith. Well, some studies were conducted beforehand 
that did inform that. For example, the Economic Research 
Service did the first study of and made a definition for areas 
with low food access, food deserts. So that was done prior to 
this.
    And what we are doing now is linking food access in food 
deserts and elsewhere with health and nutrition of the people 
in those areas.

                AGRICULTURE AND FOOD RESEARCH INITIATIVE

    Mrs. Lummis. One more question now going back to this 
competitive funding versus formula funding. Fiscal year 2012 
budget, that proposes funding of $325 million for AFRI. So that 
is a 24 percent increase of $62 million. How much of the 
increase in the AFRI Initiative can be attributed to the 
transfer of funding from other budget lines, and how much will 
go to increase the number of AFRI awards?
    Dr. Woteki. Would you like to address that, Dr. Beachy?
    Dr. Beachy. Thanks. It is a good question.
    In fact, much of the increase, if you look at the higher 
education, the graduate fellowships and institution challenge 
grants are up in AFRI so that they can enhance and will grow 
our education portfolio. So there are roll-ups of several 
programs like that to put them in a competitive end or a 
competitive initiative.
    It will result in additional grant awards, of course, as 
the amount of funding in that category goes up.
    Mrs. Lummis. And do we know how much of the increase in the 
AFRI Initiative is attributed to the transfer of funding.
    Dr. Beachy. Well, there is some roll-up that came from the 
consolidation of some of the formula funds--I mean, I am sorry, 
some of the earmarked funds--so that we could initiate new 
programs in AFRI.
    Mrs. Lummis. When you use the term ``earmark funds,'' is 
that synonymous with formula funds?
    Dr. Beachy. No.
    Mrs. Lummis. Okay.
    Dr. Beachy. There are some authorities that are designated 
in what is called Section 406 authorities. These are sections 
in water quality, food safety and pest management, and so some 
of those have also been rolled up into AFRI and then will be 
awarded through the AFRI Programs as designations in those 
topic areas or will be covered in those topic areas.
    Mrs. Lummis. And what was the goal of rolling them 
together?
    Dr. Beachy. To simplify the process of management. We know 
that these are very important programs because stakeholders 
have told us that, and so we know we want to maintain them. 
Each of these grant awards requires a management by an 
individual. They cost money; they cost management fees, and by 
combining them, it gives better management oversight, but it 
gives also a greater opportunity in the competitive process, as 
Congressman Farr mentioned, as a way to select the awardees and 
then make those grants available.
    Mrs. Lummis. Okay. Thank you, Dr. Beachy.

                              WORLD HUNGER

    Mr. Kingston. Dr. Clark, I want to ask you a question that 
you may be able to answer or you might be able to point me in 
the right direction. You did some international work in the 
U.K., and so you have a good background on this. I was 
wondering if there is any information on food supply in a 
country and the form of government in the country, hunger 
versus form of government.
    Is there anything like that out there that you know of or 
can you point me in the right direction?
    Dr. Clark. If there were, it probably would be available 
through the Food and Agriculture Organization that is part of 
the U.N. I do not know specifically of information on that, but 
there is currently a United Nations initiative to improve 
statistics, agriculture and rural statistics throughout the 
world, and they are trying to get comparable data. It is more 
extensive than what you would consider production agriculture, 
but it is extending into other data items.
    But I do not recognize that hunger was one of the data 
items that is being looked at. The World Bank also would have 
information.

                         ARS LOCATION CLOSURES

    Mr. Kingston. Okay. Dr. Woteki, you have a number of lab 
and facility closures listed. Can you put a dollar amount on 
those, the total, and tell us what your timeframe is?
    Dr. Woteki. Yes, Mr. Chairman. Those are all within the 
Agricultural Research Service, and I would like to ask Dr. 
Knipling to provide that information.
    Dr. Knipling. The program reduction--it is ten locations 
and entire programs--totals $38 million in terms of their 
annual budget.
    Mr. Kingston. And will they be closed this year? Because 
some of these like have been out there.
    Dr. Knipling. Yes, of course, they are proposed for----
    Mr. Kingston. They look like trial balloons more than 
definite decisions.
    Dr. Knipling. No, they are intended to be definite 
proposals. Of course, if those are concurred with in the budget 
process, we would then implement or initiate the closure of 
those in fiscal year 2012 in terms of stopping and terminating 
the program.
    The actual disposal of the real property is a fairly 
lengthy process and would probably take at least a year to 
actually do that, but in terms of the staffing and the research 
activity underway, we would stop that on October 1st, at the 
beginning of the fiscal year.

                   HEALTHY FOOD FINANCING INITIATIVE

    Mr. Kingston. Okay. Dr. Woteki, let me ask you this. In 
terms of some of this research question that I asked earlier 
and the answer being that it took 10 to 15 years to get the 
results from it, which I certainly understand, but how is it 
when it comes to healthy food we could develop metrics in a 
year's period of time?
    Dr. Woteki. I think the Healthy Food Financing Initiative 
is actually taking advantage of research that has been going on 
for a number of years to identify what are the indicators of 
need. So it is essentially drawing on the past experience and 
research findings to develop metrics.
    Mr. Kingston. But you would have that also on research 
dollars. Because you have a snapshot and then you have a moving 
picture, a developing picture, if you will, and it seems odd to 
me that you can say, okay, this is what is going on with 
Healthy Food Initiatives right now, but on agriculture it is a 
little bit more nebulous, that, well, it is developing; it is a 
work in progress.

                      EVALUATING RESEARCH PROGRAMS

    Dr. Woteki. Well, we actually do use a variety of different 
measures to evaluate our research programs, and we would be 
happy to share those metrics with you.
    We also are very actively engaged with other science 
agencies within the Federal Government in trying to identify 
what are the metrics that have a good evidence base that 
indicate that they really are good at evaluating scientific 
research programs.
    So it is actually a field of inquiry in and of itself. What 
are the best ways to evaluate research programs?
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                      RESEARCH FUNDING MECHANISMS

    Mr. Kingston. And I think we are all interested in this 
because with the earmark and the formula versus competitive, I 
think all of this is going to be extremely important to us.
    I am going to give you an example. Under the Hatch Act, 
scientists in North Dakota have developed three barley 
cultivars and have recommended for malting and brewing by the 
American Malt and Barley Association, and I was wondering if 
that would come close to corporate welfare in your opinion 
because it is for a specific group, the American Malt and 
Barley Association. I assume these are beer creator of some 
sort.
    Dr. Woteki. But the research actually goes to support the 
farmers who are the ones who are producing the barley that will 
then feed into the industry. There are a lot of areas in which 
we do provide research. I think Dr. Beachy earlier in 
responding to one of the questions talked about the competitive 
grants program that is in support of wheat and other grains.
    So there is a lot that we support that----
    Mr. Kingston. Well, it resulted in more money for farmers. 
I understand that, but that is still corporate welfare. I mean, 
farmers are making money from it. It specifically benefitted a 
small group of farmers and specifically benefitted a particular 
industry association, as opposed to the general application of, 
well, we all are better off from that.
    Dr. Woteki. As I testified earlier, a lot of the research 
that we support is in the what we call pre-competitive area. It 
is in research that the farmer organizations are not able to 
fund because it is a relatively small group, and that also 
though is over the long term a public good, and it is what has 
provided for incredible increases in agricultural productivity 
across the board, many, many different crops, some of them big 
ones, some of them small ones, and it has had a benefit, as 
well, for the American consumer.
    You know, the food prices that we pay are actually at this 
point less than 10 percent of income. So it is an incredible 
amount of food security that we have in this country that is 
largely a result of this investment in agriculture research.
    Mr. Kingston. My time has expired, and I thank you.
    Mr. Farr.

                AGRICULTURAL OUTPUT VS. RESEARCH FUNDING

    Mr. Farr. I want to ask Dr. Clark, who is the scorekeeper 
here, of agriculture receipts, where does the State of Georgia 
rank?
    Dr. Clark. Oh, I will probably have to ask. It is around 
tenth I would guess, but I can get back to you on the actual 
place where it ranks.
    Mr. Farr. What about the State of Ohio?
    Dr. Clark. I do not know those rankings off my head. I can 
get that information for you.
    Mr. Farr. Do you know in Pennsylvania?
    Dr. Clark. No.
    Mr. Farr. Well, I Googled it. So I am at an advantage.
    [Laughter.]
    Mr. Farr. You are pretty good. Georgia is 12th, not 10th.
    Dr. Clark. Okay. Tenth was not too bad then.
    Mr. Farr. But number 28 is New York. Number 32 is 
Tennessee. Number 22 is Michigan. Number 20 is Pennsylvania, 
and number 17 is Ohio, all of them way behind Georgia.
    Dr. Clark. Right.
    Mr. Farr. And all of them get a lot more formula money than 
Georgia gets.
    Dr. Clark. I do not allocate formula money. That is totally 
out of my----
    Mr. Farr. Well, shouldn't formula money be related to 
agricultural output?
    Dr. Clark. That is probably a question for my colleagues 
here.
    Mr. Farr. Where does California rank?
    Dr. Clark. Oh, I think it is either 1 or 2.
    Mr. Farr. It is number 1. Do you know how many crops 
California produces?
    Dr. Clark. A huge number.
    Mr. Farr. You do not have a number?
    Dr. Clark. I do not; 100 and something.
    Mr. Farr. You have got to get a better scorekeeper.
    Dr. Clark. Maybe so.
    Mr. Farr. do you know how many crops Texas produces?
    Dr. Clark. Less than California.
    Mr. Farr. Far less, and yet Texas gets a lot more money.
    The point is if you go through these rankings of states by 
agricultural output, by diversity of crop, then you go through 
the formula funding; it does not match.
    That is the whole point of this last hour or so. If we are 
left with only 2 choices of how we are going to fund 
agricultural research, formula and competitive grant, it is 
interesting because the states that actually are big production 
states do much better in the competitive grant category.
    So I would be moving more of my--if I was administering 
this and trying to bank it; the trouble is this formula, Mr. 
Chairman. These formulas were written back in the last century.
    Mr. Kingston. If the gentleman will yield, I am wondering 
if this comes to Dr. Smith's category. Do you have some 
thoughts on that because you evaluate these things.
    Dr. Smith. What I was just writing down was it would be 
interesting to look at how the allocation among states would 
change given different criteria for judging that, just for 
information.
    Mr. Kingston. That would be helpful.
    Mr. Farr. But see, I think if you were going to write a new 
farm bill, and that is where they authorize these formulas, 
then obviously those who have got some are going to be there to 
protect it. But if we are going to go into a new era of 
essentially disbursing Federal tax dollars for the purposes 
which you are in charge of, it seems to me that we want to 
argue some equity that ought to be related to need, to need of 
this country to remain in a competitive global climate.

                         ARS LOCATION CLOSURES

    I think you answered the question, but I have another one. 
In your testimony you said that you have reductions and 
terminations totaling over $100 million in funding and 182 
staff-years. It includes terminations in research projects at 
dozens of locations across the country and wholesale closure of 
10 research universities.
    We never approved those things when they came before in the 
past, but this year we are facing a different situation and a 
great deal of uncertainty. How do you determine those 
termination? Do you have a plan for it? Is it orderly? what 
goes first? How long would it take to close them? Is there 
funding asked for for the closing process?
    Dr. Woteki. Mr. Farr, those relate to the Agricultural 
Research Service, and there is a very rigorous set of criteria 
that were used to identify which programs were going to be 
stopped and which facilities would be closed.
    And as to the process that would be used, I would like to 
ask Dr. Knipling to describe what ARS will have to do.
    Dr. Knipling. Yes, as I mentioned earlier in response to 
another question, the annual savings from the research program 
itself is an aggregate of $38 million. Once we start to 
implement the closure, we encounter two types of expenses. One 
is the disposition of the real property, and then the other is 
relocation of personnel or severance of personnel. In each 
case, that would take the better part of a year, and we 
estimate that those costs would be on the order of about $25 
million in that first year.
    And, no, we are not requesting funding for that. That would 
be a cost that we would have to absorb elsewhere throughout the 
agency.
    About half of those costs are personnel relocation or 
severance costs, and about half of it is disposition of the 
real property.

                          ARS FACILITIES STUDY

    Mr. Farr. How long is it going to take you to do your study 
on facilities, the needed facilities to be expanded or new ones 
to be built?
    Dr. Knipling. That is underway now. We would hope to have a 
product by the end of this fiscal year, calendar year for sure.
    We did request in the fiscal year 2011 budget funding to 
support that as an external professional outside study. Those 
monies not forthcoming, we are initiating that with in-house 
resources, personnel and staff. So that is, in part, underway 
already.
    Mr. Farr. So you would expect that the decisions made after 
you have made this priority list, that you would have 
recommendations to Congress for appropriations when, next year? 
The next fiscal year? The next President's budget?
    Dr. Knipling. Yes, we would assume for the fiscal year 2013 
budget that the results of that study would be available. As to 
how that would actually translate into funding proposals, we do 
not know yet, but we would have the agency-wide assessment of 
our entire portfolio of facilities, over 100 different 
locations and, of course, multiple facilities at many of those 
locations.
    Mr. Farr. Could you share with us? I do not have to do it 
here on the time of the Committee, but I would like to see the 
criteria you are using and how you will be making your 
judgments.
    Dr. Knipling. Yes. We have outlined an approach and 
criteria, and of course, in simple terms, it would be both a 
facility assessment in terms of condition of the facility, as 
well as linked to the program priority not only now, but for 
the investment for the future, what programs those facilities 
would provide the capacity to undertake on a sustained basis
    Mr. Farr. Yes, I would be really keen on that because I 
have an interest in a joint facility with FDA and maybe 
Homeland Security.
    Dr. Knipling. Yes.
    Mr. Farr. All right. Well, I have no other questions, Mr. 
Chairman. I thought this was a very good hearing.
    I think it opens up more questions than we got answers for, 
but so is this entire fiscal process we are going through. So 
you have a big burden on writing your bill.
    Mr. Kingston. We will get there.
    Dr. Woteki and members of the panel, thank you for being 
here, and this meeting stands adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








</pre></body></html>
